PERFORMANCE AUDIT OF THE


Mississippi University for
Women SMARTbiz Grant
Grant: MS-16376-C1-302-11

OIG Report Number: 13-25

GRANT PERIOD: April 1, 2011 – September 30, 2013
Appalachian Regional Commission
1666 Connecticut Avenue, N.W.
Suite 700
Washington, DC 20009-1068

Mr. Hubert N. Sparks
Inspector General

Transmitted herewith is a report of Watkins Meegan LLC, a Performance Audit of the Mississippi University for
Women SMARTbiz Grant MS-16376-C1-302-11. The report is in response to Contract No. BPA 11-01-B.




Tysons, Virginia
July 31, 2013
                          MISSISSIPPI UNIVERSITY FOR WOMEN SMARTBIZ GRANT

                                               MS-16376-C1-302-11



Background
The Appalachian Regional Commission (ARC) is a regional economic development agency that represents a
partnership of federal, state, and local governments. Established by an act of Congress in 1965, ARC is composed of
the governors of the 13 Appalachian states and a federal co-chair, who is appointed by the President. Local
participation is provided through multi-county local development districts (LDDs). Each year, ARC provides funding
for several hundred projects in the Appalachian Region, in areas such as business development, education and job
training, telecommunications, infrastructure, community development, housing, and transportation. These projects
are intended to create new jobs; improve local water and sewer systems; increase school readiness; expand access
to health care; assist local communities with strategic planning; and provide technical and managerial assistance to
emerging businesses.

The Mississippi University for Women (MUW) was founded in 1884 as the first public college for women in the United
States. MUW provides undergraduate and graduate education for women and men in a variety of liberal arts and
professional programs, while maintaining its historic commitment to academic and leadership development for
women. The Center for Creative Entrepreneurship at MUW offers support, training, counseling, and resources for
existing businesses and start-ups. Services provided include telephone conferencing, business coaching and
mentoring, computer training, and research.

ARC awarded the SMARTbiz Grant (the Grant), project number MS-16376-C1-302-11, to MUW for the period from
April 1, 2011 to March 31, 2013. The terms were amended on March 18, 2013 to extend the period of performance to
September 30, 2013. The Grant provides $300,000 of ARC (federal) funding and requires $152,228 of local (non-
federal) matching funds, for total funding of $452,228.

The Grant provides funding for the SMARTbiz program to provide entrepreneurial support services to customer
enterprises, expanding the service area to target more rural and underserved communities. The SMARTbiz program
delivers services both onsite and through web-based platforms, which include: one-on-one business mentoring
services; peer-to-peer support teams; training programs; and business assessments. Business mentors include
individuals with backgrounds in a range of professional areas such as attorneys, CPAs, technology, marketing,
insurance, and other areas. Funding from the Grant covers personnel costs plus travel, supplies, and contractual
expenses.

Objective
Watkins Meegan LLC was engaged to conduct a performance audit on the SMARTbiz Grant. As the period of
performance of the Grant was not complete at the time of the audit fieldwork, the scope of the audit testing focused
on the period from April 1, 2011 to December 31, 2012. The purpose of our performance audit was to validate that:

       Funds expended and claimed for reimbursement from ARC were valid program expenses and in accordance
        with the ARC grant requirements;
       Internal controls are in place to ensure compliance with the Grant requirements; and
       Goals and objectives of the Grant have been or will be achieved during the Grant period.




                                                         1
                           MISSISSIPPI UNIVERSITY FOR WOMEN SMARTBIZ GRANT

                                                MS-16376-C1-302-11



Executive Summary
Grant funds were used to fund the payroll and benefits of 10 staff that assisted with the administration and support of
the SMARTbiz program, and to pay related administrative and program expenses. Staffing included a Principal
Investigator, Training Coordinator, Administrative Assistant, Coaches, and Student Workers. Non-personnel costs
included travel, supplies, and contractual expenses. The staff supported the program in various areas, including
program oversight and management, providing training and support to program participants, and performing research
for participants when needed.

As of February 22, 2013, ARC reimbursed $182,640 of expenses for the period ended December 31, 2012. Matching
funds provided from non-federal sources totaled $86,708 for the period ended December 31, 2012. In general, based
on our review of expenses, interviews with personnel, and review of selected documentation supporting grant
activities, it appears that the performance objectives of the Grant will be met by the time the period of performance is
complete.

Scope
We performed a performance audit of the SMARTbiz Grant MS-16376-C1-302-11 at the MUW office from April 15,
2013 through April 17, 2013, as described under this section and under the audit methodology section. Our review
was based on the terms of the Grant agreement and on the application of procedures in the modified ARC Audit
Program. As the period of performance of the Grant was not complete at the time of the audit fieldwork, the scope of
the audit testing focused on expenditures incurred during the period from April 1, 2011 to December 31, 2012.

We conducted this performance audit in accordance with Generally Accepted Government Auditing Standards
(GAGAS). Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our audit objectives.

Audit Methodology
Our procedures were based on Audit Program guidelines provided by ARC Office of Inspector General and included
suggested procedures over MUW’s accounting and internal control systems affecting the grant. We met with the
SMARTbiz program Principal Investigator to discuss the overall structure and processes of the program. We also
discussed and reviewed other financial and operational elements related to the conduct of the project.

Our review of background material included ARC’s Grant agreement and related documentation, ARC Grant
approval, the Grant application, and the State of Mississippi Institutions of Higher Learning Audited Financial
Statements for the Fiscal Year Ended June 30, 2012.

Our procedures included a review of controls in place for recording, accumulating, and reporting costs under the
Grant. We discussed with Management and certain staff whether the goals and objectives of the project funded with
ARC monies will be met. This included meeting with the Principal Investigator and other staff to understand how their
daily activities and responsibilities supported the administration of the SMARTbiz program. We reviewed
representative supporting documentation related to Grant activities for consistency with applicable performance
measures.




                                                           2
                           MISSISSIPPI UNIVERSITY FOR WOMEN SMARTBIZ GRANT

                                                MS-16376-C1-302-11



Finally, we examined a sample of timesheets, payroll detail, and related records for the staff whose employment was
supported by the ARC funds. We also inquired of key staff and reviewed supporting documentation (invoices,
vouchers, cost allocation reports, etc.) regarding a sample of travel, supplies, and contractual expenses that were
paid for by ARC funds to determine whether they were allowable costs, i.e., the expenses supported ARC staff and
the SMARTbiz program. We evaluated payments and other activities for compliance with applicable Grant
requirements and federal regulations.

Results
Compliance with Grant Provisions
The ARC (federal) share and matching (non-federal) share of actual expenditures incurred, reported, and supported
were $182,640 and $86,708, respectively, during the period under review. Total actual expenditures were $269,348,
approximately $182,880 less than the total ARC and matching budget of $452,228. All of the funds have not yet been
expended. However, the period of performance is not yet complete. We examined supporting documentation for a
sample of the costs incurred, and determined that in general the funds had been expended in compliance with the
Grant agreement.

The Grant funded the work of 10 personnel supporting SMARTbiz program activities. Services included conducting
program oversight and management, providing training and support to program participants, and performing research
for participants when needed. Outputs for the project stated in the application included the participation of at least
39 entrepreneurs in support activities and the hosting of at least 10 educational workshops attracting 200 individuals.
The associated outcomes included the retention of 20 jobs and the creation of an additional 20 jobs in the local
economy. Based on our interviews with SMARTbiz program personnel and review of the supporting documentation
related to Grant activities, we noted progress has been made toward the targets defined in the Grant application and
Management represented that they believe they are on target to achieve those goals by the end of the period of
performance.

We had the following finding regarding the Grant periodic performance reporting process:

Performance Reporting
Grant reporting should include actual outcomes and outputs and measure results against program goals defined in
the application. The Grant application provided anticipated outputs and outcomes as performance goals for
assessing program performance; however, none of periodic performance reports submitted by MUW to ARC through
February 22, 2013 have provided any measure of actual performance against those goals. The periodic reports
reviewed during the audit provide details that include the program background, activities completed during the
reporting period, including meetings held, training sessions attended, presentations, and similar information, but do
not provide any assessment of performance or results against any predefined or quantified measures.

Recommendation:
MUW should report progress made against the outcomes and outputs specified in the Grant application in the
performance progress reports and the final report for the grant. The assessment of progress against anticipated
outputs and outcomes allow the Grantee and ARC to assess whether the project is progressing as expected and if
the project has achieved, or will achieve, its goals and objectives within the appropriate timeframe.




                                                          3
                          MISSISSIPPI UNIVERSITY FOR WOMEN SMARTBIZ GRANT

                                              MS-16376-C1-302-11



Note: During the audit, we reviewed supporting documentation of activities performed and metrics recorded in
pursuit of the Grant goals and objectives and confirmed that progress has been made toward achieving the outputs
and outcomes. MUW sources further represented that, based on the progress to date, they believe the program is on
target to achieve the outcomes and measures as defined in the Grant application by the end of the stipulated period
of performance.

Management Response:
MUW accepts the recommendation and will include additional information with subsequent progress and final reports
to reconcile the actual outcomes and outputs achieved with those projected or planned in the Grant application.




                                                        4
                www.WatkinsMeegan.com

BETHESDA   ❘   ANNAPOLIS   ❘   TYSONS CORNER   ❘   HERNDON
